No.
IN THE SUPREME COURT OF THE UNITED STATES

SUSAN M. PEARSALL - PETITIONER
VS.
THOMAS C. GUERNSEY, DDS - RESPONDENT

PROOF OF SERVICE

I, Susan M. Pearsall, do declare that on December t*7

. 20

I served three

copies of the enclosed PETITION FOR A WRIT OF CERTIORARI and
CERTIFICATE OF COMPLIANCE on Thomas C. Guernsey, DDS's counsel of
record, Paul R. Bonfiglio, by mail insured for delivery within three days, by
depositing an envelope containing said documents with the United States Postal
Service, with no less than first-class postage prepaid, addressed to^
Paul R. Bonfiglio
300 Madison Avenue, Suite 1406
Toledo, Ohio 43604
PHONE (419) 242-3900
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December i7 . 20 1*?
'7-txa jLl

Susan M. Pearsall

Pursuant to Rule 29.5, this proof is accompanied by the following statement
together with the following list:
All parties required to be served have been served.
No party to be served is the United States or any federal department, office,
or agency, nor does this case involve any party in alleged service as a federal officer
or federal employee.
LIST OF COUNSEL
Party: Thomas C. Guernsey. DPS
Paul R. Bonfiglio
300 Madison Avenue, Suite 1406
Toledo, OH 43604
(419) 242-3900
Counsel ofRecord for Thomas C. Guernsey, DDS

End list.

Susan M. Pearsall
Pro Se
2447 Tiffin Ave. #139
Findlay, Ohio 45840
419-889-3564

